In the

Supreme Court of the United States
___________

MAURICE LAMONT DAVIS,
PETITIONER,
V.

UNITED STATES OF AMERICA,
RESPONDENT,
___________
PETITION APPENDIX

Case: 20-10228

Document: 00515798483

Page: 1

Date Filed: 03/26/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
March 26, 2021

No. 20-10228

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Andre Levon Glover; Maurice Lamont Davis,
Defendants—Appellants.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:15-CR-94-1
Before King, Smith, and Haynes, Circuit Judges.
Per Curiam:*
Appellants Andre Levon Glover and Maurice Lamont Davis were
convicted of multiple offenses for a series of robberies committed in June
2014. They appealed, and we affirmed all but one of their convictions,
vacated their sentences in full, and remanded to the district court for entry of

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Petition Appendix

1a

Case: 20-10228

Document: 00515798483

Page: 2

Date Filed: 03/26/2021

No. 20-10228

a revised judgment and for resentencing.1 United States v. Davis, 784 F.
App’x 277, 278 (5th Cir. 2019) (per curiam).2 On remand, the district court
resentenced Glover to 271 months of imprisonment and three years of
supervised release and Davis to 300 months of imprisonment and three years
of supervised release. Appellants timely appealed their new sentences. We
AFFIRM the district court’s judgments.
I.

Glover’s Challenge

On appeal, Glover argues that the district court erred in applying a sixlevel

firearm

enhancement

under

U.S.

Sentencing

Guideline

§ 2B3.1(b)(2)(B) for three of his four Hobbs Act robbery convictions (Counts
Three, Four, and Five, but not Count Six). He contends that because he was
convicted of a § 924(c) violation in connection with his fourth Hobbs Act
conviction (Count Six), the firearm enhancement cannot be applied to
Counts Three, Four, and Five under U.S. Sentencing Guideline § 2K2.4. As
Glover objected to the application of this enhancement before the district
court, we review the district court’s application de novo. United States v.
Valdez, 726 F.3d 684, 692 (5th Cir. 2013).
The sentencing guideline for § 924(c) convictions is Guideline
§ 2K2.4. U.S. Sent’g Guidelines Manual § 2K2.4 (U.S. Sent’g
Comm’n 2018). Note 4 of that guideline explains that when a sentence
under that guideline is imposed in conjunction with a sentence for an
underlying offense, no weapon enhancement, such as Guideline § 2B3.1, is
to be applied for that underlying offense.

Id. cmt. n.4.

For further

1

Before we made this holding, the Supreme Court had remanded this case to our
court twice in Davis v. United States, 138 S. Ct. 1979, 1979 (2018) (mem.), and United States
v. Davis, 139 S. Ct. 2319, 2336 (2019).
2

We vacated Count Two, an 18 U.S.C. § 924(c) conviction. Davis, 784 F. App’x

at 278.

Petition Appendix

2

2a

Case: 20-10228

Document: 00515798483

Page: 3

Date Filed: 03/26/2021

No. 20-10228

clarification, note 4 provides an example: “if a defendant is convicted of two
armed bank robberies, but is convicted under 18 U.S.C. § 924(c) in
connection with only one of the robberies, a weapon enhancement would
apply to the bank robbery which was not the basis for the 18 U.S.C. § 924(c)
conviction.” Id.
Just like the example, Glover’s six-level enhancement was applied to
only those robbery convictions which were not the basis for his § 924(c)
conviction. Therefore, we hold that the district court did not err in applying
the six-level enhancement to Glover’s convicted robberies charged in Counts
Three, Four, and Five, and we affirm his sentence.
II.

Davis’s Challenge

Turning to Davis’s appeal, he argues that his conviction for Count
Eight—being a felon in possession of a firearm in violation of 18 U.S.C.
§§ 922(g)(1) and 924(a)(2)—should be vacated in light of the Supreme
Court’s decision in Rehaif v. United States, 139 S. Ct. 2191 (2019).3 After a
panel of our court affirmed Davis’s Count Eight conviction twice,4 the

3

Davis makes two additional arguments on appeal, but he agrees that those
arguments are foreclosed. First, he argues that the district court erred in enhancing his
sentence for Count Eight by concluding that his three previous burglary convictions under
Texas Penal Code § 30.02(a)(1), (3) were “violent felon[ies]” under the Armed Career
Criminal Act of 1984, 18 U.S.C. § 924(e). However, we have already held that burglary
under Texas Penal Code § 30.02(a)(1), (3) is a “violent felony.” United States v. Herrold,
941 F.3d 173, 182 (5th Cir. 2019) (en banc), cert. denied, 141 S. Ct. 273 (2020) (mem.).
Second, Davis argues that the district court erred in concluding that Count Six (a Hobbs
Act robbery conviction) was a “crime of violence” under 18 U.S.C. § 924(c). A panel of
our court has already rejected that argument. United States v. Davis, 903 F.3d 483, 485 (5th
Cir. 2018) (per curiam), aff’d in part, vacated in part on other grounds, 139 S. Ct. 2319 (2019).
Accordingly, both of Davis’s additional arguments are foreclosed by precedent and lack
merit. See Jacobs v. Nat’l Drug Intel. Ctr., 548 F.3d 375, 378 (5th Cir. 2008).
4

United States v. Davis, 677 F. App’x 933 (5th Cir. 2017) (per curiam), vacated on
other grounds, 138 S. Ct. 1979 (2018) (mem.); Davis, 784 F. App’x at 277.

Petition Appendix

3

3a

Case: 20-10228

Document: 00515798483

Page: 4

Date Filed: 03/26/2021

No. 20-10228

Supreme Court held in Rehaif that a defendant charged with violating
§ 922(g) must “kn[o]w he belonged to the relevant category of persons
barred from possessing a firearm” at the time of his offense. Id. at 2200.
Davis contends that three Rehaif errors occurred: (1) the Government
presented no evidence at trial that Davis knew he was a felon at the time he
committed the offenses, (2) the grand jury did not find that Davis had such
knowledge, and (3) the district court did not instruct the jury that it must find
that Davis had such knowledge.
On the sufficiency-of-the-evidence issue, the question is whether,
based on the evidence presented at trial, any reasonable jury could have found
the essential elements of the crime beyond a reasonable doubt. United States
v. Staggers, 961 F.3d 745, 756 (5th Cir.), cert. denied, 141 S. Ct. 388 (2020)
(mem.); see also United States v. Burden, 964 F.3d 339, 348 (5th Cir.), petition
for cert. filed, No. 20-5939 (U.S. Sept. 30, 2020), and petition for cert. filed sub
nom. Scott v. United States, No. 20-5949 (U.S. Sept. 30, 2020). Assuming
arguendo that de novo review applies,5 we hold that a reasonable jury would
have found beyond a reasonable doubt that Davis knew of his felon status at
the time of the offense. At trial, Davis stipulated that he was a felon and a
witness confirmed his status. Davis does not claim that he was ignorant of
his status as a felon when he committed his § 922(g) offense, much less point
to any evidence showing that such a claim was viable. As Davis concedes, we
have previously held, on two occasions, that a defendant’s stipulation to his
felon status at trial was legally sufficient to support his § 922(g)(1)
conviction. Staggers, 961 F.3d at 757; Burden, 964 F.3d at 348. Accordingly,
5

In Burden, we observed that there may be inconsistency in our case law on
whether de novo or plain error review applies for a Rehaif sufficiency-of-the-evidence claim
when, as here, the defendant raised general objections but not Rehaif objections to the
sufficiency of the evidence. See 964 F.3d at 347 & n.6. Because we need not resolve this
issue today, we decline to do so.

Petition Appendix

4

4a

Case: 20-10228

Document: 00515798483

Page: 5

Date Filed: 03/26/2021

No. 20-10228

we reach the same conclusion here. See Jacobs v. Nat’l Drug Intel. Ctr., 548
F.3d 375, 378 (5th Cir. 2008) (explaining that “one panel of our court may
not overturn another panel’s decision, absent an intervening change in the
law, such as by a statutory amendment, or the Supreme Court, or our en banc
court”).
On the indictment and jury instruction issues, we review Davis’s
challenges for plain error, as Davis did not raise them in district court.
Staggers, 961 F.3d at 754. Under that standard of review, Davis must show
that “there was (1) error, (2) that is plain, and (3) that affects [his] substantial
rights.” Id. (internal quotation marks and citations omitted). If those
conditions are met, then we may exercise our discretion to correct the error
if the error “seriously affects the fairness, integrity, or public reputation of
judicial proceedings.” Id. at 755. Because Rehaif errors in the indictment and
jury instructions are plain errors, see Burden, 964 F.3d at 347, our analysis
turns on whether the errors affected Davis’s substantial rights.
To show that an error affected his substantial rights, Davis must
“show a reasonable probability that, but for the error, the outcome of the
proceeding would have been different.” Staggers, 961 F.3d at 755 (internal
quotation marks and citations omitted). Assessing the record as a whole, we
conclude that Davis cannot meet this burden. First, as we determined above,
there was legally sufficient evidence—Davis’s stipulation to being a felon at
trial and the witness’s confirmation of his felon status—for a reasonable jury
to convict Davis for Count Eight. See id. (stating that a Rehaif error does not
affect a defendant’s substantial rights unless “there is a reasonable
probability that a properly instructed jury viewing the evidence actually
admitted at trial would have returned a different verdict”). Additionally, in
assessing this prong, we can consider judicially noticeable facts, which
further support the conclusion that Davis was not ignorant of his status; for
example, not long before his § 922(g) offense, Davis had been sentenced to

Petition Appendix

5

5a

Case: 20-10228

Document: 00515798483

Page: 6

Date Filed: 03/26/2021

No. 20-10228

18 months of imprisonment for a felony burglary. United States v. Huntsberry,
956 F.3d 270, 285-86 (5th Cir. 2020); see also Burden, 964 F.3d at 348
(holding that a defendant could not show that Rehaif errors in the indictment
and jury instructions affected his substantial rights when he “stipulated at
trial [to being a] felon[]” and had recently been released from prison for the
felony offense). It is thus “unrealistic” to believe “that the government
would have been unable to prove” that Davis was unaware of his convictedfelon status. Burden, 964 F.3d at 348. Accordingly, Davis failed to establish
that the Rehaif errors in the indictment and jury instructions affected his
substantial rights.
The judgments of the district court are AFFIRMED.

Petition Appendix

6

6a

Case: 16-10330

Document: 00513856960

Page: 1

Date Filed: 01/31/2017

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-10330

United States Court of Appeals
Fif h Circuit

FILED
January 31, 2017
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee

v.

MAURICE LAMONT DAVIS; ANDRE LEVON GLOVER,
Defendants - Appellants

Appeals from the United States District Court
for the Northern District of Texas
USDC No. 3:15-CR-94
Before HIGGINBOTHAM, JONES, and HAYNES, Circuit Judges.
PER CURIAM:*
Andre Levon Glover appeals his conviction and sentence and Maurice
Lamont Davis appeals his sentence 1 in this case arising out of a series of
similar robberies at Murphy Oil locations across the Dallas Metroplex area
during June of 2014. 2 We AFFIRM.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Although his prayer styles his challenges as directed only to his sentence, Davis
seeks to vacate the convictions on Counts 2 and 7 as part of his requested resentencing.
1

Counts 1 and 3–6 charged conspiracy and aiding and abetting Hobbs Act (18 U.S.C.
§ 1951) robberies; Counts 2 and 7 were firearms charges under 18 U.S.C. § 924(c)(1). Count
2

Petition Appendix

7a

Case: 16-10330

Document: 00513856960

Page: 2

Date Filed: 01/31/2017

No. 16-10330
Glover’s Challenge to his Hobbs Act Convictions. Glover challenges his
convictions charging robberies in violation of the Hobbs Act which makes it
unlawful to “in any way or degree obstruct[], delay[], or affect[] commerce or
the movement of any article or commodity in commerce, by robbery.” 18 U.S.C.
§ 1951(a). Glover contends that the Government failed to prove the necessary
impact on interstate commerce because all the robberies occurred within one
state and only impacted merchandise (cartons of cigarettes) at local stores. 3
While conceding that the cigarettes themselves were manufactured out of
state, Glover argues that the inventory and replacement inventory came from
local Murphy Oil distribution centers or other stores. He also contends that
the evidence was insufficient to connect him to two of the robberies (June 16
and 21).
This court reviews a challenge to the sufficiency of the evidence
supporting a conviction by reviewing the evidence in the “light most favorable
to the verdict to determine whether a rational trier of fact could have found
that the evidence established the essential elements of the offense beyond a
reasonable doubt.” United States v. Lewis, 774 F.3d 837, 841 (5th Cir. 2014)
(citation omitted).
The Hobbs Act requires an effect on interstate commerce that is
“identical with the requirements of federal jurisdiction under the Commerce
Clause.”

United States v. Villafranca, 260 F.3d 374, 377 (5th Cir. 2001)

(citation omitted). The defendant’s activity on interstate commerce “need only
be slight” but cannot be “attenuated.” Id. (citation omitted). Here, cigarettes,

8, asserted only against Davis, was for felon-in-possession of a firearm under 18 U.S.C.
§ 922(g)(1).
3 Glover also argues that the Government should be required to prove a “substantial
effect” on interstate commerce but concedes that this argument is foreclosed by precedent.
United States v. Robinson, 119 F.3d 1205, 1215 (5th Cir. 1997).

Petition Appendix

2
8a

Case: 16-10330

Document: 00513856960

Page: 3

Date Filed: 01/31/2017

No. 16-10330
a highly regulated commodity, travelled in interstate commerce and, following
the robberies, had to be replaced by cigarettes that were manufactured and
shipped from other states.

While the Murphy Oil stores were local, the

company itself is headquartered outside of Texas and conducts business in half
the states.

We conclude that the evidence was sufficient to support the

interstate commerce nexus.
With respect to Glover’s other sufficiency challenge, we note that Glover
was apprehended following the second robbery on June 22. The similarities of
the vehicles used, the clothing worn, the weapons employed, the items stolen,
and the modus operandi between the June 22 robberies on the one hand and
the June 16 and 21 robberies on the other are sufficient to support a conclusion
by a rational juror beyond a reasonable doubt that the same person committed
all of the robberies.
Glover’s and Davis’s Challenges to Counts 2 and 7. Both Glover and
Davis contend that their convictions under 18 U.S.C. § 924(c) cannot stand in
light of Johnson v. United States, 135 S. Ct. 2551 (2015), which found a
different statutory section to be unconstitutionally vague. In Johnson, the
Court found the following portion of 18 U.S.C. § 924(e)(2)(B)(ii), known as the
residual clause, defining “violent felonies” unconstitutionally vague:

“or

otherwise involves conduct that presents a serious potential risk of physical
injury to another.” In contrast to that language, § 924(c) involves the phrase
“crime of violence” which, in turn, is defined, in relevant part, as a felony “that
by its nature, involves a substantial risk that physical force against the person
or property of another may be used in the course of committing the offense.”
18 U.S.C. § 924(c)(3)(B).
Sitting en banc, we recently considered a similar argument involving 18
U.S.C. § 16(b), which contains the exact language of § 924(c)(3)(B), and held
that the language is not unconstitutionally vague in light of Johnson. United
Petition Appendix

3
9a

Case: 16-10330

Document: 00513856960

Page: 4

Date Filed: 01/31/2017

No. 16-10330
States v. Gonzalez-Longoria, 831 F.3d 670, 677 (5th Cir. 2016) (en banc),
petition for cert. filed, (Sept. 29, 2016)(No. 16-6259). We reasoned that in
contrast to the residual clause language at issue in Johnson, the risk of
physical force in 18 U.S.C. § 16(b)—as opposed to the risk of physical injury—
is more definite. Id. at 676. We concluded that by requiring the risk of physical
force to arise “in the course of committing” the offense, the provision “does not
allow courts to consider conduct or events occurring after the crime is
complete.” Id. (citation omitted).
We recognize the possibility that identical language in two different
statutes could be differently construed but see no reason to do so here. We join
several other circuits in concluding that Johnson does not invalidate
§ 924(c)(3)(B). See United States v. Prickett, 839 F.3d 697, 699–700 (8th Cir.
2016); United States v. Hill, 832 F.3d 135, 145–49 (2d Cir. 2016); United States
v. Taylor, 814 F.3d 340, 376–79 (6th Cir. 2016), petition for cert. filed, (Oct. 6,
2016)(16-6392). 4 We therefore do not reach the question of whether the Hobbs
Act robbery charges would include a “use of force” element under 18 U.S.C. §
924(c)(3)(A).
Davis’s Challenge to the Armed Career Criminal Act (ACCA)
Enhancement. Davis argues that his prior convictions under Texas law for
burglary of a building are not “crimes of violence” for purposes of the ACCA
because the statutes under which he was convicted, Texas Penal Code
§ 30.01(a)(1) and (a)(3), are not divisible under Mathis v. United States, 136 S.
Ct. 2243 (2016), and some parts of these statutes do not qualify as “crimes of

Glover’s alternative argument that the jury should decide what constitutes a crime
of violence is meritless. A determination of whether a Hobbs Act robbery and respective
conspiracy offenses should be classified as a crime of violence is a question of law reserved
for the judge. United States v. Credit, 95 F.3d 362, 364 (5th Cir. 1996).
4

Petition Appendix

4
10a

Case: 16-10330

Document: 00513856960

Page: 5

Date Filed: 01/31/2017

No. 16-10330
violence.” However, he concedes that this challenge is foreclosed by our recent
decision in United States v. Uribe, 838 F.3d 667, 669 (5th Cir. 2016).
Glover’s Challenge to the “Abduction” Sentencing Enhancement. Glover
contends that the district court erroneously enhanced his sentence for
abduction in the June 16 (Lancaster), June 21 (Dallas), and June 22
(Mansfield) robberies because the movement of store clerks does not constitute
a forced accompaniment to a “different location” within the meaning of
U.S.S.G. § 2B3.1(b)(4)(A). Glover notes that the original PSR, which listed a
criminal history score of I and an offense level of 28, did not contain the
enhancement, presumably referring to the June 21 robbery (Dallas) because
the enhancement was present for the Lancaster and Mansfield robberies. After
the Government objected, the probation officer agreed that the enhancement
was appropriate for the June 21 robbery. However, both the Government and
the probation officer noted that, because of groupings of multiple counts, the
enhancement for June 21 (Dallas) did not affect the guidelines calculation. 5
Indeed, Glover was sentenced on Counts 1 and 3–6 premised on Guidelines
calculations that yielded a criminal history score of I and an offense level of 28,
the same as it was before the enhancement for the June 21 (Dallas) robbery.
Glover was sentenced to 78 months, the bottom of the Guidelines range, for

Glover does nothing to explain the math underlying the alleged error. However, an
examination of the PSR illuminates the issue. The page to which Glover cites to support his
argument that his sentence was enhanced by the abduction enhancement is a page from the
Addendum to the PSR which states: “The inclusion of such [abduction] enhancement . . . does
not affect the guideline computations.” His brief states that his total offense level was
increased by two levels due to this enhancement. This statement presumably refers to the
two counts premised on the Lancaster and Mansfield robberies where the enhancement
caused his offense level to be 24 which, in turn, was the “highest offense” level to which the
multiple count adjustment of four was added. Had the enhancement not been in place for
any count, the next “highest offense level” was 22. In turn, with the addition of the multiple
count adjustment of four levels, his offense level would have been 26, rather than 28.
5

Petition Appendix

5
11a

Case: 16-10330

Document: 00513856960

Page: 6

Date Filed: 01/31/2017

No. 16-10330
those counts. 6 Given the specifics of the calculations in this case, if either the
June 16 (Lancaster) or the June 22 (Mansfield) enhancements were proper,
then there would be no effect on his guidelines range making any error as to
any other count harmless. United States v. Castro-Alfonso, 841 F.3d 292, 294
(5th Cir. 2016) (harmless error review applies to procedural sentencing errors).
We review the district court’s application of the Sentencing Guidelines
de novo and its factual findings for clear error. United States v. CisnerosGutierrez, 517 F.3d 751, 764 (5th Cir. 2008) (citation omitted). “There is no
clear error if the district court’s finding is plausible in light of the record as a
whole.” Id. (citation omitted).
The Guidelines direct a court to enhance a defendant’s sentence by four
levels “[i]f any person was abducted to facilitate commission of the offense or
to facilitate escape.”

U.S.S.G. § 2B3.1(b)(4)(A).

The Guidelines define

“abducted” to mean that “a victim was forced to accompany an offender to a
different location. For example, a bank robber’s forcing a bank teller from the
bank into a getaway car would constitute an abduction.” § 1B1.1 cmt.n.1.
The term “different location” is interpreted on a case-by-case basis.
United States v. Hawkins, 87 F.3d 722, 726–28 (5th Cir. 1996). The term is
“flexible and thus susceptible of multiple interpretations” and is “not
mechanically based on the presence or absence of doorways, lot lines,
thresholds, and the like.” Id. at 728. In Hawkins, this court held that, despite
escaping, the victims were “abducted” when a gunman forced them to walk
approximately 40 to 50 feet from a location near his truck to a location near a
van in the same parking lot. Id. at 728.

Glover received consecutive sentences of 120 months and 300 months on Counts 2
and 7, respectively, for a total of 498 months.
6

Petition Appendix

6
12a

Case: 16-10330

Document: 00513856960

Page: 7

Date Filed: 01/31/2017

No. 16-10330
During the robbery of the Lancaster Murphy Oil on June 16, the store
clerk testified that Glover’s accomplice grabbed her from behind and forced her
to go from the main kiosk “to the back part of the storage building” where the
inventory is kept. The clerk was told to open the door and then “he forced [her]
down once [she] got in the [storage] room.” The robbery of the Mansfield
Murphy Oil on June 22 occurred under similar circumstances.

The clerk

testified that as she was dragging the candy rack out of the storage room, a
robber held a gun to her head and told her to get back into the storage room.
The PSR concluded from the Lancaster and Mansfield robberies that the clerks
were forced “to move from one area to another area, namely, the outside of the
kiosk to the inside of the storage room,” constituting abduction under
§ 2B3.1(b)(4)(A). We agree and conclude that the district court did not err in
applying this enhancement.
Concluding that all of Davis’s and Glover’s challenges fail, we AFFIRM.

Petition Appendix

7
13a

Case: 16-10330

Document: 00514633164

Page: 1

Date Filed: 09/07/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 16-10330

FILED
September 7, 2018
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
MAURICE LAMONT DAVIS; ANDRE LEVON GLOVER,
Defendants - Appellants
Appeals from the United States District Court
for the Northern District of Texas
_______________________

ON REMAND FROM THE UNITED STATES SUPREME COURT
Before HIGGINBOTHAM, JONES, and HAYNES, Circuit Judges.
PER CURIAM:
On January 31, 2017, we issued an opinion in this case denying Andre
Levon Glover’s challenge to his conviction and sentence and Maurice Lamont
Davis’s (Davis and Glover, collectively, “Defendants”) challenge to his
sentence, affirming the district court’s entry of judgment from the charges
under 18 U.S.C. § 1951 and 18 U.S.C. § 924(c). United States v. Davis, 677 F.
App’x 933, 935–36 (5th Cir. 2017) (per curiam). Defendants petitioned the
Supreme Court for certiorari. Following its decision in Sessions v. Dimaya, 584
U.S. ___, 138 S. Ct. 1204 (2018), the Court remanded this case to our court “for
further consideration” in light of Dimaya. Davis v. United States, 138 S. Ct.
Petition Appendix

14a

Case: 16-10330

Document: 00514633164

Page: 2

Date Filed: 09/07/2018

No. 16-10330
1979, 1979–80 (2018). We requested supplemental briefing from the parties
on the effect of the Court’s decision and now (1) continue to affirm Defendants’
conviction under Count Seven; (2) vacate Defendants’ conviction under Count
Two; and (3) leave the remainder of our prior opinion intact. 1
The first question is whether Dimaya affects Defendants’ convictions on
Count Seven for illegally using or carrying a firearm in relation to a crime of
violence, that is, Hobbs Act robbery. See 18 U.S.C. § 924(c). The conviction
depends on whether Hobbs Act robbery is a “crime of violence” subsumed by
§ 924(c)(3)(a).

Defendants urge us to extend Dimaya to reconsider our

precedent on this question. In United States v. Buck, we held that “[i]t was not
error—plain or otherwise—”to classify Hobbs Act robbery as a crime of violence
under the § 924(c) elements clause, citing cases in the Second, Third, Eighth,
Ninth, and Eleventh Circuits. 847 F.3d 267, 274–75 (5th Cir.), cert. denied,
138 S. Ct. 149 (2017). Nonetheless, Defendants argue that Hobbs Act robbery
can be committed without the use, attempted use, or threatened use of physical
force, because “fear of injury” is included in the definition of robbery. See 18
U.S.C. § 1951(b)(1).
We decline to extend Dimaya’s holding that far. Section 924(c) contains
both an elements clause and a residual clause; the elements clause defines an
offense as a crime of violence if it “has as an element the use, attempted use,
or threatened use of physical force against the person or property of another,”
Specifically, Davis individually argues that his ACCA sentencing enhancement
based upon multiple burglary convictions under Texas Penal Code § 30.02 cannot stand in
light of United States v. Herrold, 883 F.3d 517 (5th Cir. 2018) (en banc), petitions for cert.
filed, (U.S. Apr. 18, 2018) (No. 17-1445), and (U.S. May 21, 2018) (No. 17-9127). He notes
that his case is still on direct appeal, and therefore, he is entitled to the benefit of Herrold.
See Griffith v. Kentucky, 479 U.S. 314, 322–23 (1987). However, addressing that issue would
exceed the scope of the Supreme Court remand, and therefore, we decline to do so at this
time. See Aladdin’s Castle, Inc. v. City of Mesquite, 713 F.2d 137, 138–39 (5th Cir. 1983). To
be clear, we thus are not addressing Herrold on remand nor are we directing the district court
to do so.
1

Petition Appendix

2
15a

Case: 16-10330

Document: 00514633164

Page: 3

Date Filed: 09/07/2018

No. 16-10330
whereas the residual clause defines an offense as a crime of violence if it, “by
its nature, involves a substantial risk that physical force against the person or
property of another may be used in the course of committing the offense.” See
§ 924(c)(3).

Dimaya only addressed, and invalidated, a residual clause

mirroring the residual clause in § 924(c); it did not address the elements clause.
Whatever arguments may be made opposing Hobbs Act robbery’s inclusion
under the elements clause as a crime of violence, Dimaya has not affected
them, and therefore, they are foreclosed to us in light of Buck. Thus, we affirm
our prior judgment regarding Davis and Glover’s convictions for violations of
§ 924(c) as predicated on Hobbs Act robbery.
Defendants’ firearms convictions for knowingly using, carrying, or
brandishing a firearm to aid and abet conspiracy to interfere with commerce
by robbery under Count Two present a less clear question. We have held that
conspiracy to commit an offense is merely an agreement to commit an offense.
United States v. Gore, 636 F.3d 728, 731 (5th Cir. 2011). Therefore, here, the
conspiracy offense does not necessarily require proof that a defendant used,
attempted to use, or threatened to use force. Accordingly, the Government
concedes that Defendants could only have been convicted as to Count Two
under the residual clause.
The Government attempts to change its prior approach to these cases on
remand by abandoning its longstanding position that 18 U.S.C. § 924(c)(3)(B)
should be analyzed under the categorical approach. In light of Dimaya, the
Government argues we can, and should, adopt a new “case specific” method
when applying the residual clause; this method would compare § 924(c)’s
residual definition to the “defendant’s actual conduct” in the predicate offense.
Regardless of whether Dimaya would otherwise permit us to do so, we do not
find a suggestion by a minority of justices in that case sufficient to overrule our

Petition Appendix

3
16a

Case: 16-10330

Document: 00514633164

Page: 4

Date Filed: 09/07/2018

No. 16-10330
prior precedent. 2 See United States v. Williams, 343 F.3d 423, 431 (5th Cir.
2003) (“We use the so-called categorical approach when applying [§
924(c)(3)(B)] to the predicate offense statute. ‘The proper inquiry is whether a
particular defined offense, in the abstract, is a crime of violence.’” (quoting
United States v. Chapa–Garza, 243 F.3d 921, 924 (5th Cir. 2001))). Therefore,
we must address the serious constitutional questions apparent in the residual
clause of § 924(c)(3)(B) in light of Dimaya.
The Supreme Court rested its decision in Dimaya on its concerns about
the language of the statute itself.

Although § 16(b) contained linguistic

differences to the Armed Career Criminal Act (“ACCA”) residual clause the
Court had previously invalidated in Johnson v. United States, 135 S. Ct. 2551
(2015), it noted that each statute contained “both an ordinary-case
requirement and an ill-defined risk threshold,” and this “‘devolv[ed] into
guesswork and intuition,’ invited arbitrary enforcement, and failed to provide
fair notice.”

Dimaya, 138 S. Ct. at 1223 (alteration in original) (quoting

Johnson, 135 S. Ct. at 2559). Because the language of the residual clause here
and that in § 16(b) are identical, this court lacks the authority to say that,
under the categorical approach, the outcome would not be the same. We hold
that § 924(c)’s residual clause is unconstitutionally vague.

Therefore,

Justice Gorsuch, in concurrence, along with Justice Thomas, joined by Justices
Kennedy and Alito, in dissent, suggested that an alternative approach to the categorical
approach may be preferable in analyzing residual clauses. Dimaya, 138 S. Ct. at 1233
(Gorsuch, J., concurring in part and concurring in the judgment); id. at 1252–53 (Thomas, J.,
dissenting). However, the holding in Dimaya addressed § 16(b) as interpreted via the
categorical approach, without deciding whether the statute could be interpreted under
alternative approaches. See id. at 1217–18 (plurality opinion) (interpreting the categorical
approach as the “best read[ing]” of the statutory text); id. at 1233 (Gorsuch, J., concurring in
part and concurring in the judgment) (noting that other interpretive approaches may be
possible, but that the parties conceded application of the categorical approach in this case).
2

Petition Appendix

4
17a

Case: 16-10330

Document: 00514633164

Page: 5

Date Filed: 09/07/2018

No. 16-10330
Defendants’ convictions and sentences under Count Two must be vacated. 3
We conclude this decision does not implicate the sentences on the other counts.
U.S. v. Clark, 816 F.3d 350, 360 (5th Cir. 2016).
Accordingly, we AFFIRM the judgment of the district court except with
respect to the conviction and sentence as to Count Two; as to Count Two, we
VACATE the conviction and REMAND for entry of a revised judgment
consistent herewith.

Davis received a 120-month sentence as to Count Two, to run consecutively with a
concurrent 188-month sentence as to Counts One, Five, and Six and a 300-month sentence
as to Count Seven, along with a concurrent 120-month sentence as to Count Eight, for an
aggregate sentence of 608 months. Glover also received a 120-month sentence as to Count
Two, to run consecutively with a concurrent seventy-eight-month sentence as to Counts One,
Three, Four, Five, and Six and a 300-month sentence as to Count Seven, for an aggregate
sentence of 498 months.
3

Petition Appendix

5
18a

Case: 16-10330

Document: 00514633164

Page: 6

Date Filed: 09/07/2018

No. 16-10330
PATRICK E. HIGGINBOTHAM, Circuit Judge, concurring in part and
dissenting in part:
I concur only in the vacating of the Count Two conviction. With respect,
the remedy afforded Davis is deeply flawed by two basic errors of law interlaced
in effect.
First, in the majority’s suggestion that we are here barred from
considering issues beyond the scope of the Supreme Court’s remand order.
Supra at 2 n.1. After granting certiorari in this case, the Court vacated our
previous opinion and remanded for consideration in light of the Dimaya
decision. Davis v. United States, 138 S. Ct. 1979 (2018). In this circumstance
we have jurisdiction to consider issues not addressed in the Supreme Court’s
mandate on remand. Hill v. Black, 920 F.2d 249, 250 (5th Cir. 1990), modified
on other grounds on denial of reh'g, 932 F.2d 369 (5th Cir. 1991); see also Moore
v. Zant, 885 F.2d 1497, 1503 (11th Cir. 1989).
Second, the majority errs in frustrating the district court’s duty to
construct proper sentences from a holistic examination of the intertwined acts
of criminality for which the defendants were convicted. The majority remedies
the error with respect to Davis and Glover’s convictions under § 924(c)’s
residual clause by reaching into their sentences and excising a period of time.
But

the

aggregate sentences here—combinations of

concurrent

and

consecutive sentences for different counts—resulted from a sentencing
judgment by the district court. “‘A criminal sentence is a package of sanctions
that the district court utilizes to effectuate its sentencing intent.’” Pepper v.
United States, 562 U.S. 476, 507 (2011) (quoting United States v. Stinson, 97
F.3d 466, 469 (11th Cir. 1996) (per curiam)). It is for the district court—not
this court—to reach sentencing decisions in the first instance. “[A] district
court’s ‘original sentencing intent may be undermined by altering one portion

Petition Appendix

6
19a

Case: 16-10330

Document: 00514633164

Page: 7

Date Filed: 09/07/2018

No. 16-10330
of the calculus’”—here reductions by 120 months of the defendants’ 608-month
and 498-month sentences. Id. (quoting United States v. White, 406 F.3d 827,
832 (7th Cir. 2005)). The majority concludes that excision of the sentences
associated with Davis and Glover’s Count Two convictions does not implicate
their sentences relative to other counts, citing to our Clark decision. Supra at
5. But Clark was an appeal from a district court’s decision. Clark, 816 F.3d at
354. There, the district court had determined that, after excision of time
associated with a dismissed conviction, the petitioner’s remaining aggregate
sentence entailed an appropriate package without further adjustment. Id. at
360. If the instant case were an appeal from a district court’s resentencing of
Davis and Glover, I would find Clark controlling and reliance upon it sound.
Today’s decision, however, involves the Court of Appeals making that
determination. A district court declining to adjust the remaining parts of its
original sentencing package does not speak to an appellate invasion of the
district court’s sentencing prerogatives.
The appropriate remedy is to vacate Davis and Glover’s entire sentences
and remand for resentencing. See United States v. Aguirre, 926 F.2d 409, 410
(5th Cir. 1991) (Rubin, Politz, Davis) (“The proper remedy . . . is to vacate the
entire sentence and remand for resentencing.”). Such a disposition is especially
appropriate where the district court in any event under current law may well
be faced with constructing a new sentencing package. This because, lurking in
the background of the majority’s disposition in this case is another issue: the
sentencing package here also included Davis’s ACCA sentence enhancement
predicated on convictions for Texas burglary. Were Davis resentenced, the
district court would consider current law, including United States v. Herrold.
883 F.3d 517 (5th Cir. 2018) (en banc), petitions for cert. filed, (U.S. Apr. 18,
2018) (No. 17-1445), and (U.S. May 21, 2018) (No. 17-9127); see Griffith v.

Petition Appendix

7
20a

Case: 16-10330

Document: 00514633164

Page: 8

Date Filed: 09/07/2018

No. 16-10330
Kentucky, 479 U.S. 314, 322–23 (1987). Management of the sentencing process
is best left to the court charged with the task and best situated to accommodate
it. Here it should have the opportunity to revisit the entirety of the sentencing
package including whether to defer resentencing pending the Supreme Court’s
disposition of petitions for certiorari in Herrold. The district court has been
denied that opportunity. District courts are not mere “gatekeepers,” and
sentences often—as here—present as packages effectuating the district court’s
sentencing intent, as Chief Justice Rehnquist would remind.

Petition Appendix

8
21a

Case: 16-10330

Document: 00515195346

Page: 1

Date Filed: 11/12/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 16-10330

FILED
November 12, 2019
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
MAURICE LAMONT DAVIS; ANDRE LEVON GLOVER,
Defendants - Appellants

Appeals from the United States District Court
for the Northern District of Texas
USDC No. 3:15-CR-94-2
USDC No. 3:15-CR-94-1
ON REMAND FROM THE UNITED STATES SUPREME COURT
Before HIGGINBOTHAM, JONES, and HAYNES, Circuit Judges.
PER CURIAM:*
Appellants Andre Levon Glover and Maurice Lamont Davis were
convicted for a series of robberies committed in June 2014 at Murphy Oil
locations in the Dallas area. Both Appellants were convicted under the Hobbs
Act, 18 U.S.C. § 1951(a), for conspiracy to interfere with and aiding and

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Petition Appendix

22a

Case: 16-10330

Document: 00515195346

Page: 2

Date Filed: 11/12/2019

No. 16-10330
abetting interference with commerce by robbery. 1 They were also convicted on
firearms charges under 18 U.S.C. § 924(c). 2 Davis alone was convicted for
being a felon in possession of a firearm in violation of 18 U.S.C. § 924(a)(2). In
their original appeals, we affirmed the district court’s judgment in full. United
States v. Davis, 677 F. App’x 933, 935–36 (5th Cir. 2017) (per curiam). The
Appellants petitioned the Supreme Court for certiorari. Following its decision
in Sessions v. Dimaya, 138 S. Ct. 1204 (2018), the Court remanded this case to
our court “for further consideration in light of ” Dimaya. Davis v. United States,
138 S. Ct. 1979, 1979–80 (2018) (mem.).
On remand, we affirmed the Appellants’ convictions and sentences on all
counts save Count Two. United States v. Davis, 903 F.3d 483, 486 (5th Cir.
2018). Finding the residual clause of 18 U.S.C. § 924(c) unconstitutionally
vague in light of Dimaya, we vacated the Appellants’ convictions and sentences
on Count Two and remanded for entry of a revised judgment. Id. While the
Appellants’ petitions for rehearing were pending, the United States petitioned
for certiorari on the issue of the residual clause in this context, which the
Supreme Court granted. We stayed proceedings on the petitions for rehearing
pending the Court’s decision. The Court agreed that § 924(c)’s residual clause
was unconstitutionally vague, so it affirmed our decision on the Count Two
convictions. Because we had stayed the petition for rehearing pending the
Court’s decision, it vacated in part and remanded the case to our court to

Glover was convicted under the Hobbs Act on Counts One, Three, Four, Five, and
Six; Davis was convicted on Counts One, Five, and Six.
1

These were Counts Two and Seven, which charged the Appellants with using,
carrying, and brandishing firearms during and in relation to, and possessing and brandishing
firearms in furtherance of, a crime of violence. Glover’s conviction on Count Seven also
included aiding and abetting the brandishing of firearms. Our original ruling that the
conviction on Count Seven remains valid following Dimaya because it involved a crime of
violence under the elements clause which was not altered. See 903 F.3d at 484-85
2

Petition Appendix

2
23a

Case: 16-10330

Document: 00515195346

Page: 3

Date Filed: 11/12/2019

No. 16-10330
address in the first instance the petition for rehearing which included the issue
of whether we should order a resentencing. United States v. Davis, 139 S. Ct.
2319, 2336 (2019).
To summarize, we continue to affirm all convictions save Count Two
which we vacate. We therefore remand for entry of a revised judgment of
conviction consistent with this opinion. We deny the petition for rehearing as
to the convictions. Turning to the question of resentencing, we grant the
petition for rehearing in part and vacate the Appellants’ sentences in full,
remanding their sentences to the district court for resentencing in full. 3 See
Pepper v. United States, 562 U.S. 476, 507 (2011) (“Because a district court’s
original sentencing intent may be undermined by altering one portion of the
calculus, an appellate court when reversing one part of a defendant’s sentence
may vacate the entire sentence . . . .” (citation and internal quotation marks
omitted)). We do not opine on how the district court should resentence the
Appellants.
The judgment of the district court is AFFIRMED in part, VACATED in
part, and REMANDED for entry of a revised judgment and for resentencing.

While not dispositive, the Government concedes that a full resentencing is
appropriate here.
3

Petition Appendix

3
24a

